OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/AFGHANISTAN’S
REBUILDING AGRICULTURAL
MARKETS PROGRAM


AUDIT REPORT NO. 5-306-06-002-P
MARCH 28, 2006




MANILA, PHILIPPINES
Office of Inspector General


      March 28, 2006


      MEMORANDUM

      TO:                      USAID/Afghanistan Director, Alonzo L. Fulgham

      FROM:                    RIG/Manila, Catherine M. Trujillo /s/

      SUBJECT:                 Audit of USAID/Afghanistan’s Rebuilding Agricultural Markets Program
                               (Report No. 5-306-06-002-P)


      This memorandum transmits our final report on the subject audit. In finalizing the report,
      we considered your comments to the draft report and included the comments (without
      attachments) in Appendix II.

      This report contains three recommendations to improve USAID/Afghanistan’s Rebuilding
      Agricultural Markets Program. Based on the information provided by the Mission in
      response to the draft report, we consider that final actions have been taken on all three
      recommendations upon issuance of this report.

      I want to thank you and your staff for the cooperation and courtesy extended to us during
      the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background .................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

Were USAID/Afghanistan’s Rebuilding Agricultural Markets
Program activities on schedule to achieve selected planned outputs?

     Planned Target for Rehabilitation of Farm-to-
     Market Roads Not Achieved ....................................................................................... 6

     Contract Administration Needs Improvement ............................................................. 7

Evaluation of Management Comments ....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14

Appendix III – Projected Costs .................................................................................... 18
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Afghanistan’s Rebuilding Agricultural Markets Program activities were on schedule
to achieve selected planned outputs (page 3).

Of the six activities reviewed, five achieved their selected planned outputs and one did
not. The five that achieved the planned outputs were the rehabilitation of irrigation
canals, agricultural micro-loans disbursed, livestock vaccinated/treated, farmers served
by extension, and women trained in poultry management as of September 30, 2005. For
example, efforts on irrigation canals resulted in 415 kilometers rehabilitated (pages 4
and 5). Additionally, over 20,000 women were trained in poultry management and over
16 million livestock vaccination/treatments were performed (pages 4 and 6). The one
activity that did not meet the planned output was the rehabilitation of farm-to-market
roads (page 6).

USAID/Afghanistan did not meet its September 30, 2005, target of rehabilitating the
number of kilometers of farm-to-market roads. USAID/Afghanistan approved the
contractor’s 12-month work plan which provided for rehabilitating 555 kilometers of
farm-to-market roads by the end of September 2005. As of that date, Chemonics
International, Inc., the implementing contractor, had rehabilitated only 391 of the planned
555 kilometers. USAID/Afghanistan did not achieve its expected results for a number of
reasons, including security and poor subcontractor performance issues. These reasons
were due to factors outside of the contractor’s control and hence no recommendation
was made. The overall impact to USAID/Afghanistan’s contract is that Chemonics will
likely not be able to complete its end-of-contract target of rehabilitating 900 kilometers of
farm-to-market roads by July 2, 2006 (page 6).

In addition, USAID/Afghanistan did not properly administer its contract with Chemonics
with regards to updated work plans, changed scope of work, and annual evaluations of
contractor performance. A contractual relationship between USAID/Afghanistan and
Chemonics required both parties to fulfill specific responsibilities in order to manage and
implement the contract activities. Furthermore, USAID/Afghanistan’s decision to use a
contract instrument to implement this program required it to follow the applicable Federal
Acquisition Regulation, which it did not do. The reasons why USAID/Afghanistan did not
properly administer the contract were because other tasks took priority, and the Mission
did not enforce the contract terms with Chemonics. As a result, USAID/Afghanistan’s
contract administration could result in the inefficient use of U.S. government resources.
Additionally, the Mission did not have timely updates on the performance of
Chemonics—updates which serve as a relevant, important source of information in
responsibility determinations and future contract awards (page 7).

This report made three recommendations to improve USAID/Afghanistan’s Rebuilding
Agricultural Markets Program activities (pages 9 and 10). Based on USAID/Afghanistan’s
comments, we consider that final actions have been taken on all three recommendations
upon issuance of this report (page 11). USAID/Afghanistan’s comments are included
(without attachments) as Appendix II to this report (pages14-17).




                                                                                           1
BACKGROUND
USAID/Afghanistan’s Rebuilding Agricultural Markets Program (RAMP) aimed to help
the people and Government of Afghanistan rehabilitate the country’s rural sector,
focusing specifically on enhancing food security and increasing rural incomes. In July
2003, USAID/Afghanistan awarded Chemonics International, Inc. (Chemonics), a 3-year
cost-plus, fixed-fee contract for $153.4 million to implement the activities under this
program. Chemonics, the prime contractor for this project, was responsible for providing
effective leadership, management and coordination of program activities, ranging from
assessments, program design and planning, procurement of services in support of the
core program activities, activity monitoring, and reporting. The program management
component of the contract also included personnel, financial and resource management,
coordination with USAID, and the development of work plans and progress reports.

Under the broad contract statement of work, in addition to a program management
component, USAID/Afghanistan grouped activities into three main sectors: infrastructure
reconstruction, rural financial services, and agricultural technology and market
development.      Within the infrastructure reconstruction sector, USAID/Afghanistan
planned to rehabilitate and repair farm-to-market roads, bridges, culverts, irrigation
systems, and market structures.           Within the rural financial services sector,
USAID/Afghanistan planned to initiate a micro and small enterprise financial service
program focused on rural activities. This program was to involve village banking
activities and address production, processing and marketing enterprises in order to
expand operations and invest in equipment and machinery. Lastly, within the
agricultural technology and development sector, USAID/Afghanistan’s objective was to
improve the capacity of Afghan farmers and firms to produce, process, and trade
agricultural foods and services at a cost and quality level sufficient to compete in
domestic, regional, or international markets. Within the selected agricultural subsectors
such as women trained in poultry management, USAID/Afghanistan required the
contractor to focus at least one of the subsectors on improving livestock markets.

USAID/Afghanistan required the contractor to submit job orders specifying details on the
activities it intended to implement under each of the three main sectors. Within the job
orders the contractor was required to describe all services to be performed or supplies to
be delivered, along with the potential sources for those supplies or services. In addition,
the job orders were to include:

•   an estimate of the full cost;

•   the period of performance;

•   the geographic coverage;

•   the nature of deliverables, expected results and impacts;

•   environmental impacts and mitigation measures;

•   community contributions, and coordination with partners; and



                                                                                         2
•   financial, monitoring, and reporting requirements.

As of December 2005 USAID/Afghanistan had approved 51 job orders with a total value
of $114.2 million.


AUDIT OBJECTIVE
The Regional Inspector General/Manila included this audit in its fiscal year 2005 audit
plan to answer the following question:

•   Were USAID/Afghanistan’s Rebuilding Agricultural Markets Program activities on
    schedule to achieve selected planned outputs?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                     3
AUDIT FINDINGS
Of the six activities selected for review, five achieved their selected planned outputs and
one did not. The one activity that did not meet the planned output was the rehabilitation
of farm-to-market roads.

In accordance with the terms of the contract, Chemonics issued the required documents
which defined its implementation strategy, provided a vision of the work to be conducted
over the life of the project, and defined in greater detail the work to be completed within
its annual work plan. From this work plan, Chemonics provided the cumulative target
indicators that it planned to accomplish by September 30, 2005. Across each of the
three sectors, USAID/Afghanistan monitored and reported on 11 different outputs. To
answer the audit objective, we audited two outputs within the infrastructure
reconstruction sector, one within the rural financial services sector, and three within the
agricultural technology and market development sector.

As shown in Table 1 below, Chemonics achieved five of the six selected outputs set
within its fiscal year 2005 work plan.

      TABLE 1: PLANNED AND REPORTED OUTPUTS FOR RAMP ACTIVITIES
                       (AS OF SEPTEMBER 30, 2005)

                                                                  Sept 2005
                                      Sept 2005      Sept 2005    Work Plan     June 2006
          Selected Outputs             Planned       Reported      Targets       Planned
                                       Outputs        Output      Achieved       Outputs

    Infrastructure Reconstruction
    Canals Rehabilitated                 400            415           Yes           750
    (kilometers)
    Farm-to-Market Roads                 555            391           No            900
    Rehabilitated (kilometers)
    Rural Financial Services
    Loans Disbursed                     15,000         28,118         Yes         15,000
    Agricultural Technology and Market Development
    Livestock Vaccinated/Treated     10,000,000     16,694,954        Yes       12,000,000
    Farmers Served by Extension       750,000        841,462          Yes        1,500,000
    Women Trained in Poultry           17,500         20,339          Yes         25,000
    Management

Under the infrastructure reconstruction sector, one of the outputs USAID/Afghanistan
included was the repair and clean up of 1,000 kilometers of canals. 1 In response to the
contract terms, the Chemonics infrastructure team planned to rehabilitate approximately
750 kilometers of canal systems over the life of the contract with 400 kilometers to be
completed by September 30, 2005. As of that date, Chemonics had rehabilitated 415
kilometers of canals. In completing this work, Chemonics primarily awarded fixed price

1
   The contract specified maximum ceiling outputs for which the contractor was to work towards.
In some cases, the contractor estimated a lesser amount given the level of funding and the time
available to perform.


                                                                                             4
subcontracts to rehabilitate canals. The following photographs depict the condition of
one of the canals in the province of Parwan before and after the rehabilitation.




 Photograph of the Charikar Canal’s Five-Fingers      Photograph of improvements made to Charikar
 Extension structure in the province of Parwan,       Canal after rehabilitation (RIG/Manila auditor took
 Afghanistan before rehabilitation (RIG/Manila        the photograph in December 2005).
 auditor took the photograph in May 2005).


Also under the infrastructure reconstruction sector of the contract, USAID/Afghanistan
estimated that up to 1,000 kilometers of farm-to-market roads and bridges would be
repaired. The following photographs illustrate sections of a 12-kilometer farm-to-market
road rehabilitation project in the province of Parwan after rehabilitation.




 Photograph of a bridge structure on the Canal Road   Photograph of the Canal Road in the province of
 in the province of Parwan, Afghanistan after         Parwan, Afghanistan after rehabilitation (RIG/Manila
 rehabilitation (RIG/Manila    auditor   took   the   auditor took the photograph in May 2005).
 photograph in May 2005).

Under the rural financial services sector, an example of one of the over 28,000
micro-loans disbursed was an initial loan of $240 to a sheep farmer for the expansion of
his herd of sheep, which led to purchase and sale of some sheep, loan repayment, a
second loan, a third loan, and other related transactions until he owned over sixty sheep
and three cows.


                                                                                            5
Under the agricultural technology and market development sector, the livestock
vaccinations/treatments numbering over 16 million involved the training of nearly 250
persons who earned their livelihood from their new profession. Farmers were provided
information on growing crops through a variety of extension services, including
classroom study, demonstration plots, field days with lectures and demonstrations, and
broadcast of regular radio and television agricultural programs. Women in remote
villages attended weekly classes on poultry management for about three months and
received a dozen live pullets and related supplies and vaccines to start their flock in
order to supplement their diet and earn income from the sale of eggs and chickens. 2

The contractor’s projected costs for each                  of   the   contract   sectors   as   of
December 7, 2005, are presented in Appendix III.

Despite progress achieved in the above-mentioned activities, USAID/Afghanistan had
not met the planned September 2005 output with regards to the number of kilometers of
farm-to-market roads that the contractor expected to rehabilitate. The conditions
impacting this output are discussed in more detail below.


Planned Target for Rehabilitation of Farm-to-
Market Roads Not Achieved
    Summary: USAID/Afghanistan did not meet its September 30, 2005, target for
    rehabilitating the number of kilometers of farm-to-market roads. USAID/Afghanistan
    approved the Chemonics 12-month work plan, which provided for rehabilitating 555
    kilometers of farm-to-market roads by the end of September 2005. As of that date,
    Chemonics had completed 391 of the planned 555 kilometers. USAID/Afghanistan
    did not achieve its expected results for a number of reasons, including security and
    poor subcontractor performance issues. The overall impact to USAID/Afghanistan’s
    contract is that Chemonics will likely not be able to complete the end-of-contract
    target of rehabilitating 900 kilometers of farm-to-market roads by July 2, 2006.


Under the infrastructure reconstruction sector, USAID/Afghanistan estimated that up to
1,000 kilometers of farm-to-market roads, bridges, culverts and other pertinent structures
would be repaired. As of October 2004, the Chemonics infrastructure team planned to
rehabilitate 900 kilometers of compacted-gravel, farm-to-market roads over the life of the
contract. For fiscal year 2005, USAID/Afghanistan approved the Chemonics 12-month
work plan that included rehabilitating 555 kilometers of farm-to-market roads to be
completed by September 30, 2005. But as of September 30, 2005, Chemonics had
repaired 391 kilometers of farm-to-market roads, resulting in a 164-kilometer shortfall.

USAID/Afghanistan, in partnership with Chemonics, did not achieve the planned target
for this reconstruction and repair component for a number of reasons. For example,
security issues in Nuristan province in Afghanistan caused Chemonics to cancel road
work. Chemonics also cited poor subcontractor performance as a reason for delays in
the schedule providing two examples where it had to modify job orders because of poor

2
    Pullets are defined as young hens, usually not more than a year old.


                                                                                                6
performance and awarded the work to other subcontractors. Lastly, USAID/Afghanistan
decided to replace the scope of work planned for rehabilitating farm-to-market roads with
other activities that it considered to fall within the broad contract objectives.

As a result of the above-mentioned factors, Chemonics canceled 96 kilometers of road
work due to security issues and rescinded work on 89 kilometers of road work due to
poor subcontractor performance. Most of the work for these two subcontractors was
scheduled for fiscal year 2005. Furthermore, USAID/Afghanistan re-allocated at least
$14 million of projected contract costs from the Chemonics work plan and redirected
Chemonics to implement other activities not originally planned (see page 8 for further
discussion). The overall impact to the September 30, 2005, targeted outputs was that
Chemonics did not complete 164 kilometers of farm-to-market roads as planned. This
shortfall, coupled with the redirection of work to other project goals, will impact the
contractor’s ability to complete the approved 900 kilometers of farm-to-market roads
defined in the life-of-project work plan. USAID/Afghanistan’s Cognizant Technical
Officer and contractor representatives stated that given the factors experienced thus far,
700 kilometers of rehabilitated roads is a more realistic end-of-contract estimate by
July 2, 2006. However, to achieve this estimated goal, work would have to have started
in January 2006.

We are not making a recommendation in response to this problem area as a number of
the underlying reasons why Chemonics did not achieve the interim target of 555
kilometers were factors outside of the contractor’s control.                    However,
USAID/Afghanistan’s contract management of this program is an area that if improved
could contribute to more efficient and effective decisions in managing inputs. Therefore,
the recommendations following this next section may alleviate subsequent problems that
could negatively impact achieving the outputs.


Contract Administration Needs Improvement

 Summary:      USAID/Afghanistan did not properly administer its contract with
 Chemonics with regards to updated work plans, changed scope of work, and annual
 evaluations of contractor performance. The Mission’s contract with Chemonics
 required both parties to fulfill specific responsibilities in order to manage and
 implement the contract activities. Furthermore, USAID/Afghanistan’s decision to use
 a contract instrument to implement this program required it to follow the applicable
 Federal Acquisition Regulation including administering the contract, which it did not
 do. The reasons why USAID/Afghanistan did not properly administer the contract
 were because other tasks took priority, and the Mission did not enforce the contract
 terms with Chemonics. As a result, USAID/Afghanistan’s contract administration
 could result in the inefficient use of U.S. government resources. Additionally, the
 Mission did not have timely updates on the performance of Chemonics—updates
 which serve as a relevant, important source of information in responsibility
 determinations and future contract awards.



USAID/Afghanistan implemented the activities under its Rebuilding Agricultural Markets
Program through the award of a cost-type contract with Chemonics, the prime


                                                                                         7
contractor. Although USAID/Afghanistan’s adherence to certain contract terms and
acquisition regulations were critical to managing this contract, it did not properly
administer its contract with Chemonics within the areas addressed below.


Lack of Updated Work Plans – In accordance with the terms of the contract,
Chemonics was required to submit, within 30 days of the award and periodically
thereafter, initial and updated work plans describing the activities anticipated for the life-
of-project and following year. An updated work plan would allow USAID/Afghanistan
and the contractor to monitor, maintain control, and exercise direction as appropriate. In
addition, USAID and the contractor were to review the work plan at frequent, joint USAID
and contractor program review meetings.

Since the start of this contract in July 2003, USAID/Afghanistan had approved and used
Chemonics’ life-of-project work plan dated October 2004 and its fiscal year 2005 work
plan dated December 2004 to monitor contractor progress. Although Chemonics
developed earlier versions of work plan documents, USAID had not approved them.
According to the terms of the contract, the contractor should have submitted an overall
plan in August 2003, and updated plans in August 2004, and August 2005 and a 12-
month plan every quarter for approval by USAID/Afghanistan.

USAID/Afghanistan did not enforce the contract terms with Chemonics with regards to
submitting updated work plans because Chemonics updated and revised its planned
activities on a recurring basis as events occurred.       According to Chemonics
representatives, it communicated these changes to the Cognizant Technical Officer.
Furthermore, USAID/Afghanistan had to change the planned projects due to the working
environment in Afghanistan.

USAID/Afghanistan’s contract with Chemonics stated that a 12-month work plan and
schedule would assure, to the maximum extent possible, the necessary performance
and inputs from all parties to complete the program on time and within budget. These
work plans would allow USAID and the contractor to monitor, maintain control, and
exercise direction as appropriate. As a result, lack of such plans could result in the
inefficient use of U.S. government resources.


Scope of Work Changed – USAID/Afghanistan’s contract with Chemonics grouped
activities into three main sectors: infrastructure reconstruction, rural financial services,
and agricultural technology and market development. Within its life-of-project plan and
the fiscal year 2005 work plan mentioned above, Chemonics identified each of the
activities it intended to implement for the three sectors. If any changes were to occur
within the description of services to be performed, then USAID/Afghanistan’s contracting
officer could, by written order, change the general scope of the contract, in accordance
with Federal Acquisition Regulation, Part 43 on contract modifications.

As mentioned on page 7 of this report, USAID/Afghanistan re-allocated at least $14
million of projected contract costs from the Chemonics infrastructure reconstruction
component with other activities that it considered to fall within the broad contract
objectives. This change directly impacted the contractor’s ability to meet its targets for
rehabilitation of the farm-to-market roads.      For example, in November 2004
USAID/Afghanistan awarded Chemonics a $17.9 million alternative income project to be


                                                                                            8
implemented under a separate job order under the Rebuilding Agricultural Markets
Program. This project had two primary objectives:

   1. to create immediate employment-generating activities with the direct involvement
      of local governments and beneficiary communities, and

   2. to facilitate the development of an economic “safety net,” assisting people unable
      to participate in alternative employment activities.

This project with over $8.8 million in costs was discontinued early in July 2005 because
USAID/Afghanistan transferred the project activities to another USAID program
managed by Chemonics.

Though this alternative income project included activities that complemented the
planned activities, its outputs were distinct and apart from the services described in
USAID/Afghanistan’s original July 2003 contract with Chemonics. This is evident in that
Chemonics did not include this type of activity within its approved life-of-project plan or
work plan with related changes. This occurred because the Mission did not properly
administer the contract. As a result, Chemonics was implementing activities that were
not within the scope of work of the contract. USAID/Afghanistan’s managing the
contract in such a way could result in a USAID representative taking actions that may
impact the contract schedule, funds, and/or scope—actions, he or she is not empowered
to take.


Contractor Performance Reporting – As part of the monitoring component of this
contract, USAID/Afghanistan was required by the Federal Acquisition Regulation and
Automated Directives System 302.5.9 to record and report contractor performance
information on Chemonics’ performance on an annual basis. USAID/Afghanistan should
have conducted an annual performance evaluation of this contract; however, as of
December 2005, it had not completed such evaluations.

USAID/Afghanistan stated that annual contract performance reporting was not done
because it was not treated as a priority task. Furthermore, the yearly staff rotation made
it difficult for the Mission to implement this reporting requirement. As a result, the
Mission did not have timely updates on the performance of Chemonics—updates which
serve as a relevant, important source of information in responsibility determinations and
future contract awards.

Contract administration in the areas addressed above is critical to the overall
management of this program. Therefore we recommend the following.

       Recommendation No. 1. We recommend that USAID/Afghanistan obtain
       updated work plans from the contractor required by the contract.

       Recommendation No. 2.        We recommend that USAID/Afghanistan
       determine if the added work under the original contract should have been
       approved and modified within the original contract prior to
       implementation, in accordance with Federal Acquisition Regulation, Part
       43 on contract modifications.         If yes, we recommend that
       USAID/Afghanistan’s Contracting Officer modify the contract accordingly.


                                                                                         9
Recommendation No. 3:      We recommend that USAID/Afghanistan
implement an action plan to require its staff to complete and issue
contractor performance reports to comply with Automated Directives
System 302.5.9.




                                                                      10
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Afghanistan provided written comments that are
included (without attachments) in Appendix II to this report. USAID/Afghanistan agreed
with all three recommendations.

For Recommendation No. 1, USAID/Afghanistan provided evidence that it had obtained
an updated fiscal year 2006 work plan and an updated life-of-project work plan from the
contractor implementing the Rebuilding Agricultural Markets Program (RAMP).
Additionally, the Mission had incorporated these updated plans into its RAMP contract
through a contract modification. Based on our review of the Mission’s corrective actions,
we consider that final action has been taken on this recommendation.

For Recommendation No. 2, USAID/Afghanistan determined that a modification to the
RAMP contract was not required to approve activities subsequently added to the
activities listed in the original contract. The Mission provided three principal reasons for
its determination. First, it explained that RAMP implementation is accomplished through
work orders; it pointed out that the activities that were added, such as the Alternative
Income project, were added through work orders. Second, the Mission asserted that the
added activities fell within or were consistent with the objectives of the RAMP contract.
Third, the Mission noted that updated work plans (obtained and incorporated into the
RAMP contract as discussed in the preceding paragraph) included the added activities.
We accepted the Mission’s determination; therefore, final action has been taken on this
recommendation.

For Recommendation No. 3, USAID/Afghanistan provided evidence that it had issued
Mission Notice No. 2006-05, which established procedures and timelines to ensure that
the contractor performance reports are continually updated and current. Additionally, the
Mission provided evidence that it had completed a performance evaluation of the RAMP
contractor. Based on our review of the Mission’s corrective actions, final action has
been taken on this recommendation.




                                                                                         11
                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with generally
accepted government auditing standards. This audit was designed to determine whether
USAID/Afghanistan’s Rebuilding Agricultural Markets Program (RAMP) activities were on
schedule to achieve selected planned outputs.

The audit covered RAMP’s cumulative planned outputs as of September 30, 2005, as
detailed in the supplement to the 12-month work plan dated December 2004. The audit
fieldwork was conducted from May 16 to June 6, 2005, and from November 21 to
December 7, 2005, at the offices of USAID/Afghanistan and Chemonics International, Inc.,
in Kabul, Afghanistan. We visited several RAMP activities located in Kabul and Parwan
provinces of Afghanistan; for example:

•   the Five-Fingers Extension structure of the Charikar Canal before and after its
    rehabilitation,

•   12 kilometers of the Canal Road after its rehabilitation,

•   operations of regional and area offices for agricultural micro loans,

•   a demonstration plot for a new variety of grapes, and

•   a greenhouse demonstration plot for various vegetables.

Due to U.S. Embassy security advisories, we were unable to carry out scheduled visits
of a veterinary field unit, a market center, and an agricultural produce nursery.

In planning and performing the audit, we reviewed and assessed the Mission’s internal
controls related to ensuring that RAMP activities were on schedule to achieve selected
planned outputs. The contractor identified 11 output indicators in its fiscal year 2005
life-of-project work plan. In our audit, we selected the following six outputs for
measuring the program’s progress:            canals rehabilitated, farm-to-market roads
rehabilitated, loans disbursed, livestock vaccinated/treated, farmers served by extension,
and women trained in poultry management. We judgmentally selected six indicators based
on the Cognizant Technical Officer’s opinion that the six were key output indicators.

During the audit, we assessed controls related to whether the Mission (1) communicated
consistently with Chemonics on its performance; (2) conducted visits of Chemonics and its
RAMP activities to evaluate progress; (3) established and maintained work files for RAMP
documents and correspondence; (4) reviewed and approved strategy and work plans
prepared by Chemonics; and (5) conducted annual performance evaluations of Chemonics.
We also reviewed the mission orders for management controls related to the audit objective
and the Mission’s self-assessment prepared in compliance with the Federal Managers’
Financial Integrity Act for fiscal year 2005 for related controls to the audit objective. There
were no prior audit findings affecting this audit.



                                                                                            12
                                                                            APPENDIX I



Methodology
To answer the audit objective, we interviewed officials of USAID/Afghanistan and
Chemonics. In addition, we reviewed and analyzed the relevant documentation and
processes related to RAMP activities. The documentation and processes reviewed
included those related to the program’s (1) planned outputs and (2) actual outputs reported
by Chemonics to the Mission. We also visited eight selected RAMP activities.

We judged that each planned output was achieved if it was at least 90 percent complete
within 2 weeks of its planned completion date. We designed our audit to address potential
concerns such as noncompliance with contract terms related to updated work plans, and
nonperformance of annual contractor performance evaluations.




                                                                                        13
                                                          APPENDIX II




MANAGEMENT COMMENTS

             USAID AFGHANISTAN
             FROM THE AMERICAN PEOPLE



                                               March 23, 2006

MEMORANDUM

To:                 RIG/Manila, Catherine M. Trujillo

From:               Barry Primm, Acting Mission Director /s/

Subject:            USAID/Afghanistan Request for Management
                    Decision – Rebuilding Agricultural Markets
                    Program (RAMP) Program Audit December 2005.
                    (Report No. 5-306-06-00x-P)

We appreciate the opportunity to respond to the subject draft
report. The Mission concurs with the three recommendations and
has taken corrective action for 1 and 3 and made the
determination as requested for recommendation number 2.
The following are the actions taken by the Mission to the
recommendations below:

        Recommendation No. 1. We recommend that
        USAID/Afghanistan obtain updated work plans from the
        contractor required by the contract.

        USAID/Afghanistan Response: Concur. Attachment 1 is the
        updated FY 2006 Work Plan and Life of Project Plan (LOP).
        The document has been incorporated into the RAMP contract
        306-C-00-03-00502-00 via modification. The LOP and annual
        work plan reflect mutual agreement on the indicator for the
        farm to market roads as well as Alternative Livelihoods
        work. Regarding the farm to market roads, the indicator
        now reflects the change from 900 kilometers to 572 as
        directed by the CTO.

        Moreover, the contractor’s failure to provide updated work
        plans as required by the contract is reflected in their
        current CPR.




                                                                     14
                                                 APPENDIX II

Recommendation No. 2. We recommend that
USAID/Afghanistan determine if the added work under
the original contract should have been approved and
modified within the original contract prior to
implementation, in accordance with Federal Acquisition
Regulation, Part 43 on contract modifications. If
yes, we recommend that USAID/Afghanistan’s Contracting
Officer modify the contract accordingly.

USAID/Afghanistan Response: The Mission has reviewed
the recommendation and after discussions with the
technical staff and Contracting Officer has determined
that a modification to the contract is not required.
Our reasoning follows.
Section B.2 “Contract Type” in the contract shows that
“Job Orders will be issued by the Contracting Officer
for those services described in Section C.” and that
program implementation is accomplished through
issuance of job orders.

The RAMP contract is structured with two contract line
items (CLINs). CLIN 1 is level of effort for the
management and monitoring of the work performed under
CLIN 2. CLIN 2 addressed the various technical areas
and implementation of work through job orders.

Regarding Alternative Livelihoods, the attached CTO’s
letter shows that funds slated for infrastructure work had
to be shifted to northern Afghanistan due to security
reasons and in response to Mission’s priorities to address
poppy cultivation.

The objective of the $17.9 million reprogrammed to
Alternative Income Project (AIP), Job Order No. 46 fell
within the objective of RAMP for increasing agriculture
productivity to accelerate growth in the agriculture sector
and ultimately contributing to increase in rural incomes.
This is consistent with the Mission’s intermediate
indicator IR5.1. “Rehabilitate the Rural Economy”. AIP
generated 22 labor-intensive cash for work infrastructure
projects in 10 districts of Helmand province. The cash for
work activities implemented in Helmand province were for
the rehabilitation of irrigation infrastructure such as
cleaning of drains, irrigation canals and debris from
karezes (underground irrigation system). Farm to market
roads were also rehabilitated and weaved metal frames for
gabion baskets. The cash for work activities directly fell
under RAMP’s “rehabilitation/repair of physical
infrastructure” component.

Other examples of activities for immediate needs that were
consistent with the overall objective of the RAMP contract


                                                             15
                                                 APPENDIX II

was the emergency seed wheat and fertilizer distribution
program (Job Order 48), agriculture input supply program
(Job Order No. 52) and Ministry of Agriculture
institutional capacity building (Job Order No. 51). Job
Order Nos. 48 and 52 were in response to the government’s
request for safety nets for farmers shifting from poppy
production to licit crops. The farmers were provided
improved seed varieties, better technology and best farm
practices. These activities fell under the agriculture
technology and marketing component of RAMP, and contributed
to increased productivity in the agriculture sector. For
sustainability of the RAMP activities, human resources in
the Ministry of Agriculture have to be improved by
providing technical assistance in various aspects of
agriculture development which were undertaken under Job
Order No. 51.

In addition, recommendation 1 provides for USAID/AF to
update the RAMP contract work plans to reflect program
work. We have modified the contract (Attachment 2,
Contract Modification) to include the updated work
plans which also include the activities described
above which were already in the Scope of Work.

Recommendation No. 3: We recommend that
USAID/Afghanistan implement an action plan to require
its staff to complete and issue contractor performance
reports to comply with Automated Directives System
302.5.9.

USAID/Afghanistan Response: Concur. USAID/AF recognizes
the importance of contractor performance monitoring and has
taken immediate corrective action to ensure compliance.

February 28, 2006, a mission notice (Attachment 3) was
issued to address the contractor performance process and to
ensure that the contractor performance reports are
continually updated so that they are current. An Action
Memorandum to the Acting Mission Director and Acting Deputy
Mission Director provided the status of each CPR. Please
see Attachment 4, Acting Mission Director approval of
updated CPRs.

RECOMMENDATION:

Based on the above, USAID/AF requests closure of
recommendations 1, 2 and 3 upon issuance of the report
since corrective action has been taken and determination
requested has been made.

Thanks.



                                                           16
                                                 APPENDIX II


Attachment 1, Chemonics Fiscal Year 2006 Work Plan,
including CTO technical direction letter, Chemonics’
request to amend the Work Plan;
Attachment 2, Contract Modification
Attachment 3, Mission Notice – Contractor Performance
Reports
Attachment 4, Acting Mission Director Review of CPR
Database




                                                          17
                                                                                APPENDIX III




                              RAMP CONTRACT PROJECTED COSTS
                                   (As of December 7, 2005)


Management, administration, and technical assistance                                   $20,663,766

Infrastructure reconstruction
  Canals rehabilitated and farm to market roads combined subcontracts   $12,207,587
  Canals rehabilitated subcontracts                                     $20,476,970
  Farm to market roads subcontracts                                      $3,800,759
  Market Centers                                                         $3,964,585
   Alternative income project                                            $8,832,385
           Subtotal:                                                                   $49,282,286

Rural financial services
 Micro-loans disbursed                                                   $5,000,000
 Other loans                                                            $12,759,897
           Sub-total:                                                                  $17,759,897

Agricultural technology and market development
 Livestock vaccinations/treatments                                      $11,995,453
 Women training in poultry management                                    $3,599,239
 Vegetable dehydration factory                                           $3,022,887
 Farmers served by extension and other costs                            $28,594,954
           Sub-total:                                                                  $47,212,533

Other costs
 Ministry of Agriculture capacity building and other costs               $7,998,032
 General and administrative                                              $6,112,637
 Fixed fee                                                               $4,134,615
          Sub-total:                                                                   $18,245,284

Total                                                                                 $153,163,766 *

                           *Chemonics-provided data. Amounts not audited.




                                                                                               18
U.S. Agency for International Development
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
          Fax: (202) 216-3047
           www.usaid.gov/oig

                                            19
